                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                



                     EPA’s Radiation and Indoor
                     Environments National
                     Laboratory Should Improve
                     Its Computer Room
                     Security Controls
                     Report No. 12-P-0847               September 21, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                              Rudolph M. Brevard
                                                   Michael Goode
                                                   Sabrena Stewart




Abbreviations

EPA           U.S. Environmental Protection Agency
IT            Information Technology
NIST          National Institute of Standards and Technology
OAR           Office of Air and Radiation
OIG           Office of Inspector General
ORD           Office of Research and Development
RIENL         Radiation and Indoor Environments National Laboratory
SP            Special Publication




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               12-P-0847
                                                                                                     September 21, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA’s Radiation and Indoor Environments
The U.S. Environmental              National Laboratory Should Improve Its
Protection Agency (EPA) Office      Computer Room Security Controls
of Inspector General (OIG)
conducted this audit to assess
the security posture and             What We Found
in-place environmental controls
of EPA’s Radiation and Indoor       Our review of the security posture and in-place environmental controls of EPA’s
Environments National               Radiation and Indoor Environments National Laboratory computer room
Laboratory computer room in         disclosed an array of security and environmental control deficiencies. These
Las Vegas, Nevada. This audit       deficiencies greatly hinder the ability of the Office of Air and Radiation (OAR) to
was conducted in support of         safeguard critical information technology assets and associated data from the
the audit of EPA’s directory        risk of damage and/or loss.
service system authentication
and authorization servers.           Recommendations and Planned Agency Corrective Actions

This report addresses the           We recommended in our draft report that OAR remediate physical and
following EPA Goal or               environmental control deficiencies. In its response to the draft report, OAR
Cross-Cutting Strategy:             provided a corrective action plan with milestone dates to address agreed-upon
                                    recommendations 1 through 5. OAR did not agree or disagree with
 Strengthening EPA’s               recommendation 6 because corrective actions required consultation with the
  workforce and capabilities.       U.S. General Services Administration to identify a suitable resolution.

                                    OAR subsequently submitted an updated status on agreed-upon corrective
                                    actions. Based upon that status, corrective actions for recommendations 1
                                    through 5 have been completed. In the updated status, OAR proposed an
                                    alternative action of accepting the risks of not installing the emergency shut-off
                                    valve for recommendation 6. OAR made this proposal because its initial
                                    investigation suggested that compliance would be cost prohibitive and the local
                                    fire code may make necessary modifications infeasible. OAR agreed to assume
                                    the risks associated with that decision.

                                    We consider recommendations 1 through 5 closed with agreed-upon corrective
                                    actions complete. For recommendation 6, we accept OAR's proposal and have
                                    updated it to reflect necessary steps OAR must undertake to implement the
                                    proposed alternative action. Specifically, OAR management should update its
For further information, contact
                                    information security plan to formally accept the risks for not meeting minimum
our Office of Congressional and
Public Affairs at (202) 566-2391.   information systems security controls required by federal guidance. OAR
                                    concurred with the update to recommendation 6. Although OAR has concurred
The full report is at:              with the recommendation change, we consider recommendation 6 unresolved
www.epa.gov/oig/reports/2012/       pending receipt of a corrective action plan with milestone completion dates.
20120921-12-P-0847.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460




                                                                             THE INSPECTOR GENERAL




                                       September 21, 2012

MEMORANDUM

SUBJECT:       EPA’s Radiation and Indoor Environments National Laboratory
               Should Improve Its Computer Room Security Controls
               Report No. 12-P-0847


FROM:          Arthur A. Elkins, Jr.

TO:            Jim Jones
               Senior Information Official
               Office of Air and Radiation


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

The Office of Air and Radiation (OAR) provided an acceptable corrective action plan and has
completed agreed-upon corrective actions for recommendations 1 through 5. In OAR’s response
to the draft report, it neither agreed nor disagreed with recommendation 6. Subsequently, OAR
proposed an alternative action to resolve recommendation 6. The OIG accepts OAR’s proposed
alternative action and has updated recommendation 6 to reflect necessary steps OAR must
undertake to implement the proposed alternative action. However, we consider recommendation 6
unresolved pending receipt of a corrective action plan with milestone completion dates.

Therefore, in accordance with EPA Manual 2750, you are required to provide a written response
to this report within 90 calendar days. You should include a corrective action plan for
recommendation 6, including milestone dates. Your response will be posted on the OIG’s public
website, along with our memorandum commenting on your response. Your response should be
provided as an Adobe PDF file that complies with the accessibility requirements of Section 508
of the Rehabilitation Act of 1973, as amended. The final response should not contain data that
you do not want to be released to the public; if your response contains such data, you should
identify the data for redaction or removal. We have no objections to the further release of this
report to the public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rudolph M. Brevard,
Director, Information Resources Management Assessments, at (202) 566-0893 or
brevard.rudy@epa.gov; or Michael Goode, Project Manager, at (202) 566-0354 or
goode.michael@epa.gov.
EPA’s Radiation and Indoor Environments                                                                                      12-P-0847
National Laboratory Should Improve Its
Computer Room Security Controls




                                      Table of Contents 

   Purpose .......................................................................................................................    1


   Background ................................................................................................................        1


   Scope and Methodology ............................................................................................                 1


   Findings ......................................................................................................................    2


           Computer Room Servers Unsecured and Without Compensating Controls .......                                                 2

           No Automatic Shutdown Capabilities for Power System ......................................                                3

           Servers Exposed to Potential Water Damage .....................................................                           3


   Recommendations .....................................................................................................              4


   Agency Comments and OIG Evaluation………………………………………………...                                                                           5


   Status of Recommendations and Potential Monetary Benefits..............................                                           6




Appendices
   A Agency Response to Draft Report ………………………………………………….                                                                             7


   B Distribution ……………………………………………………………………...............                                                                          10

Purpose
            The U.S. Environmental Protection Agency (EPA) Office of Inspector General
            (OIG) conducted this audit to assess the security posture and in-place
            environmental controls of EPA’s Radiation and Indoor Environments National
            Laboratory (RIENL) computer room in Las Vegas, Nevada. This audit was
            conducted in support of the audit of EPA’s directory service system
            authentication and authorization servers.

Background
            The RIENL protects the public and the environment by minimizing public
            exposure to radiation and indoor air pollution through environmental
            measurements, applied technologies, and education. The laboratory also provides
            scientific and technical support for the Agency’s radiation, ambient air quality,
            and indoor environments programs at EPA headquarters and in the regions; other
            federal agencies; tribal, state, and local governments; and private industry. The
            laboratory is part of the Office of Air and Radiation (OAR).

Scope and Methodology
            We performed this audit from January 2011 through April 2012 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the audit to obtain sufficient and appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objectives.

            We conducted the on-site review of the computer room security posture and
            in-place environmental controls at the RIENL in Las Vegas, Nevada, in March
            2011. The criteria used for the review were derived from the National Institute of
            Standards and Technology (NIST) Special Publication (SP) 800-53,
            Recommended Security Controls for Federal Information Systems and
            Organizations, “Physical and Environmental Protection Security” control family.
            We evaluated the RIENL computer room through inquiry, observation, and
            review of documentation. At the time of our visit in March 2011, we met with
            OAR representatives and shared our findings with them. While onsite for another
            audit in September 2011, we met with OAR representatives to determine whether
            the findings we identified in March 2011 had been remediated.

            Prior OIG Reports

            In EPA OIG Report No. 10-P-0059, EPA Needs to Improve Physical Security at
            Its Offices in Las Vegas, Nevada, February 3, 2010 (2010 Report), we found that
            the Office of Research and Development (ORD) operated the access control
            system for EPA’s Las Vegas offices, and granted personnel access to sensitive


12-P-0847                                                                                       1
            areas without proper authorization. We recommended that ORD develop and
            implement procedures to ensure that all organizations are provided with the
            information necessary to monitor and review the access to their space until offices
            accept the responsibility from ORD. We also recommended that the Office of
            Administration and Resources Management’s Security Management Division
            conduct an assessment of the physical security practices at EPA’s Las Vegas
            locations and conduct outreach to the Las Vegas offices to provide assistance.
            EPA agreed with the findings and recommendations.

Findings
            RIENL computer room control deficiencies greatly reduce the ability of OAR to
            safeguard critical IT assets and associated data from the risk of unauthorized
            access, damage, and/or loss. In particular, physical access controls were not in
            place to monitor access to critical IT assets. Also, the server room lacked
            environmental controls to protect IT assets from potential loss or damage due to
            power outages and water leaks. NIST prescribes the selection and implementation
            of appropriate security controls for an information system, which represent the
            management, operational, and technical safeguards or countermeasures employed
            to protect the confidentiality, integrity, and availability of the system and its
            information. Although OAR has taken steps to correct some of the weaknesses
            noted during our initial site visit in March 2011, additional steps are needed. We
            believe that OAR faces potential disruption of its operations if it does not correct
            the identified weaknesses.

            Computer Room Servers Unsecured and Without Compensating
            Controls

            In March 2011, we found that critical servers in the RIENL computer room were
            not secured in locked cabinets to prevent unauthorized access. NIST SP 800-53
            specifies that organizations should use lockable physical casings to protect
            information system components from unauthorized physical access. We noted that
            the cabinets were not locked because the rack-mounted IT assets exceeded the
            length of the server cabinets, thereby preventing the cabinets from being locked
            without potentially damaging the IT assets.

            Additionally, management had not implemented compensating controls such as
            video monitoring of the computer room to ensure the capability of identifying the
            cause of a service disruption or to serve as a reference point to plan risk mitigation
            procedures. NIST SP 800-53 recommends that organizations guard, alarm, and
            monitor every physical access point to the facility where the information system
            resides 24 hours per day, 7 days per week. The computer room is controlled by a
            card access system. However, in our 2010 Report, we had noted weaknesses within
            the card access system. As a result of this previously identified weakness and issues
            identified during this audit, the OIG believes that video cameras are an additional
            safeguard that will aid in monitoring personnel activity.


12-P-0847                                                                                      2
            We shared these findings with OAR representatives in March 2011. We also met
            with OAR representatives in September 2011 to determine whether the office
            took steps to address these weaknesses. During our subsequent walkthrough, we
            noted that OAR had installed four new server cabinets to correct the previously
            identified issue associated with the rack-mounted IT assets. All rack-mounted IT
            assets now properly fit into the server cabinets. However, not all server cabinet
            doors were locked. The unlocked server cabinet doors leave the servers and
            associated IT assets vulnerable to unauthorized access, tampering, and/or theft.

            Additionally, while conducting the September 2011 visit, we noted that a video
            camera had been installed on the wall of the computer room. This camera appears
            to monitor computer room entry/exit points and the server cabinets. This video is
            monitored and recorded outside of the computer room. However, OAR
            representatives could not provide us with any policies and/or procedures that
            outline monitoring practices and responsibilities. NIST SP 800-53 specifies that
            organizations should document physical and environmental protection procedures
            that address purpose, scope, roles, and responsibilities. We could not test the new
            video surveillance system because personnel responsible for the video
            surveillance system were not available during our visit.

            No Automatic Shutdown Capabilities for Power System

            In emergency situations, RIENL’s ability to shut down IT equipment in an orderly
            fashion is limited. NIST SP 800-53 states that an organization should provide a
            short-term uninterruptible power supply to facilitate an orderly shutdown of the
            information system in the event of a primary power source loss. The possibility of
            an orderly emergency shutdown is hindered by the lack of (1) a generator to
            provide emergency power, (2) around-the-clock monitoring of the RIENL
            computer room, and (3) an uninterruptible power supply with automated
            shutdown capability.

            OAR personnel indicated that once power is lost, its uninterrupted power supply
            only provides 20 minutes of backup power to manually shut down IT equipment.
            This short period during which back-up power is available, combined with the
            lack of dedicated around-the-clock staff manning the computer room and the lack
            of automatic shutdown capabilities, increases the likelihood that personnel will
            not be able to perform an orderly shutdown of IT assets in the event of a power
            loss. Inability to perform an orderly shutdown increases the risk of data loss.

            Servers Exposed to Potential Water Damage

            RIENL IT assets are at risk of damage due to accidental water leakage. The U.S.
            Government Accountability Office, Federal Information System Controls Audit
            Manual, specifies that environmental controls exist to help ensure that building
            plumbing lines do not endanger the computer facility or, at a minimum, that



12-P-0847                                                                                       3
            shutoff valves and procedures exist and are known. The manual also points to the
            need for water detectors on the floor of the facility. NIST SP 800-53 stipulates
            that an organization should protect information systems from damage resulting
            from water leakage by providing master shutoff valves that are accessible,
            working properly, and known to key personnel. Server cabinets containing the IT
            assets were located directly under the computer room’s overhead sprinklers, and
            the fire suppression system within the room is fully charged. Fully charged fire
            suppression systems maintain water pressure at all times, and these pipes could
            leak, especially at points where the sprinkler heads connect to the water pipes.
            The computer room also did not have compensating controls, such as leak shields,
            to protect these assets from potential water damage.

            When organizations have a fully charged fire suppression system, the risk of water
            damage from leaks may be mitigated by removing IT assets from areas directly
            under sprinkler heads or pipes when possible. When it is not possible to relocate IT
            assets to areas not directly under sprinkler heads and pipes, other compensating
            controls such as leak shields attached to or above the cabinets should be utilized.

            OAR does not have formal procedures related to monitoring potential water leaks
            in the computer room, or for actions to be taken in the event of a water leak. In
            addition, the computer room does not have a master shutoff valve for the water
            pipes running through the computer room.

Recommendations
            We recommend that the Senior Information Official, Office of Air and Radiation:

               1.	 Develop and implement computer room policies and procedures to ensure
                   that server cabinets are locked at all times, except when IT assets are being
                   worked on.

               2.	 Develop and implement computer room policies and procedures related to
                   video surveillance of the physical access to critical assets within the
                   computer room including, but not limited to, detailed procedures that specify:

                       a.	   How long video footage should be maintained
                       b.	   How video surveillance reviews should be performed
                       c.	   How often video footage should be reviewed
                       d.	   The groups and persons responsible for reviewing video
                             surveillance footage

               3.	 Develop and implement computer room policies and procedures to limit
                   water damage to the IT assets in the computer room, to include:

                       a.	 24 hours/day, 7 days/week monitoring
                       b.	 Timely actions to be taken in the event of a water leak in the
                           computer room


12-P-0847                                                                                     4
               4.	 Acquire and implement an uninterrupted power supply that will
                   automatically perform an orderly shutdown of IT assets without manual
                   intervention in the event of a long-term loss of power.

               5.	 Move the server racks so that they are not directly under sprinkler heads or
                   water pipes or, if that is not possible, install leak shields on or above the
                   server racks directly under sprinkler heads or water pipes.

               6.	 Install a master shutoff valve for the water pipes that flow through the
                   computer room or update the local area network security plan to have the
                   Authorizing Official formally accept the risks of operating the facility
                   without installing the valve.

Agency Comments and OIG Evaluation

            OAR responded to our draft report and provided a corrective action plan with
            milestone dates to address agreed-upon recommendations 1 through 5. OAR did
            not agree or disagree with recommendation 6. Corrective actions for this
            recommendation required consultation with the U.S. General Services
            Administration because that office leases the OAR facility under review. This
            response is provided in Appendix A.

            OAR subsequently submitted an updated status on agreed-upon corrective actions.
            Based upon the OIG review of the updated status of corrective actions and
            supporting documentation, we consider recommendations 1 through 5 closed and
            associated corrective actions complete. In the updated status, OAR proposed an
            alternative action of accepting the risks associated with not installing the
            emergency shut-off valve for recommendation 6. OAR made this proposal
            because its initial investigation suggested that compliance would be cost
            prohibitive and the local fire code may make modifications infeasible.

            We accept OAR’s proposal regarding recommendation 6 and have updated it to
            reflect necessary steps OAR must undertake to implement the proposed
            alternative action. Specifically, OAR management should update its information
            security plan to formally accept the risks of not installing the emergency shut-off
            valve as specified by NIST 800-53. OAR concurred with the update to
            recommendation 6. Although OAR has concurred with the recommendation
            change, we consider recommendation 6 unresolved pending receipt of a corrective
            action plan with milestone completion dates.




12-P-0847                                                                                     5
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1        Action Official              Date      Amount      Amount

     1        4     Develop and implement computer room policies             C       Senior Information Official,
                    and procedures to ensure that server cabinets are                Office of Air and Radiation
                    locked at all times, except when IT assets are
                    being worked on.

     2        4     Develop and implement computer room policies             C       Senior Information Official,
                    and procedures related to video surveillance of the              Office of Air and Radiation
                    physical access to critical assets within the
                    computer room including, but not limited to,
                    detailed procedures that specify:
                      a. How long video footage should be maintained
                      b. How video surveillance reviews should be
                         performed
                      c. How often video footage should be reviewed
                      d. The groups and persons responsible for
                         reviewing video surveillance footage

     3        4     Develop and implement policies and procedures to         C       Senior Information Official,
                    limit water damage to the IT assets in the computer              Office of Air and Radiation
                    room, to include:
                      a. 24 hours/day, 7 days/week monitoring
                      b. Timely actions to be taken in the event of a
                         water leak in the computer room

     4        5     Acquire and implement an uninterrupted power             C       Senior Information Official,
                    supply that will automatically perform an orderly                Office of Air and Radiation
                    shutdown of IT assets without manual intervention
                    in the event of a long-term loss of power.

     5        5     Move the server racks so that they are not directly      C       Senior Information Official,
                    under sprinkler heads or water pipes or, if that is              Office of Air and Radiation
                    not possible, install leak shields on or above the
                    server racks directly under sprinkler heads or water
                    pipes.

     6        5     Install a master shutoff valve for the water pipes       U       Senior Information Official,
                    that flow through the computer room or update the                Office of Air and Radiation
                    local area network security plan to have the
                    Authorizing Official formally accept the risks of
                    operating the facility without installing the valve.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0847                                                                                                                                               6
                                                                                     Appendix A

                   Agency Response to Draft Report


MEMORANDUM

SUBJECT:	 Response to Recommendations for Improving EPA’s Radiation and Indoor
          Environments National Laboratory (R&IENL) Computer Room Security Controls -
          Project No. OMS-FY11-0009

FROM:          Elizabeth Shaw
               Acting Deputy Assistant Administrator


TO:	           Rudolph M. Brevard
               Director, Information Resources Management Assessments


This document outlines solutions in concurrence to recommendations made in the OIG report,
dated April 26, 2012, stating security controls at R&IENL need improvement.

OIG recommendation # 1: Develop and implement computer room policies and procedures to
insure that server cabinets are locked at all times, except when IT assets are being worked on and
regular maintenance performed.

OAR Response: In concurrence with the above recommendation, a memorandum outlining
current R&IE computer server room security policies and procedures is in development. As
noted in the OIG report, R&IE IT personnel were aware of the issue and working on a
remediation strategy prior/during/after the IG inspection. Server rack replacement cost and time
for completion has taken over one year.

Planned Completion Date:
June 29, 2012

OIG recommendation # 2: Develop and implement computer room policies and procedures
related to video surveillance of the physical access to critical assets within the computer room
including, but not limited to, detailed procedures that specify:
a. How long video footage should be maintained
b. How and when video surveillance reviews should be performed
c. How often video footage should be reviewed
d. The groups and persons responsible for reviewing video surveillance footage




12-P-0847                                                                                          7
OAR Response: In concurrence with the above recommendation, a CCTV SOP is in
development to address policies and procedures related to the La Plaza CCTV system. This
system resides in the R&IE GSS and is jointly managed with OCFO/LVFC providing services to
all seven AA offices at the La Plaza Business Center. OAR/ORIA/RIE will work with
OCFO/LVFC management and IT staff in order to meet this recommendation.

Planned Completion Date:
July 31, 2012

OIG recommendation # 3: Develop and implement policies and procedures to limit water
damage to the IT assets in the computer room, to include:
a. 24 hours/day, 7 days/week monitoring
b. Timely actions to be taken in the event of water leak in the computer room

OAR Response: In concurrence with the above recommendation, a memorandum outlining
current R&IE’s Server Room Environmental System Control policies and procedures will be
developed. This memo will outline environmental controls currently available in the server room
such as water, heat, and noise alerts and our automated 24/7 monitoring system.

Planned Completion Date:
June 29, 2012

OIG recommendation # 4: Acquire and implement an uninterrupted power supply (UPS) that
will automatically perform an orderly shutdown of IT assets without manual intervention in the
event of a long-term loss of power.

OAR Response: In concurrence with the above recommendation, a software and hardware
solution has been researched to implement an orderly shutdown on all compatible systems.
Recently the primary server environment was migrated to a VM system. Prior to this migration,
due to the age of our servers, it was not possible to properly and efficiently implement this
recommendation.

Planned Completion Date:
August 31, 2012

OIG recommendation # 5: Move the server racks so that they are not directly under sprinkler
heads or water pipes or, if that is not possible, install leak shields on or above the server racks
directly under sprinkler heads or water pipes.

OAR Response: In concurrence with the above recommendation, a sheet metal contractor has
been contracted to design, construct and install water leak shields on all five server racks that are
directly under sprinkler heads and water pipes.

Planned Completion Date:
August 31, 2012




12-P-0847                                                                                             8
OIG recommendation # 6: Install a master shutoff valve for the water pipes that flow through
the computer room.

OAR Response: R&IE server room is located in a space leased by GSA. Further research needs
to be conducted by GSA in order to establish whether this recommendation is feasible for
implementation or if cost is prohibitive. Preliminary R&IE research indicates local city/county
fire department policies may make this infeasible based on the current building infrastructure.

Planned Completion Date:
TBD

cc:    	Larry Dollison
       Mike Flynn
       Ron Fraass
       Reginald Slade
       Maureen Hingeley




12-P-0847                                                                                      9
                                                                                Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Deputy Assistant Administrator for Air and Radiation
Senior Information Official, Office of Air and Radiation
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Senior Agency Information Security Officer
Director, Radiation and Indoor Environments National Laboratory, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Air and Radiation
Information Security Officer, Office of Air and Radiation




12-P-0847                                                                                  10
